(..- '-'



     f;;




           OFFICE                OF INSPECTOR GENERAL
           OFFlCJ:OFEVALUATION        AND INSPECTIONS



                                                        JUNE   1990
     - -                                                                                                       .. . (?
                                                                                                        ' ' "- '
4.         . 0



                                                                                                                 . 1

                                                                                                                 'i      '7'




                                         OFFICE OF INSPECTOR GENERAL
                 The mission of the Offce of Ins ctorGenera (OIG)is to promote effciency, effectiveness.--
                 and integrty of program in the United States Dcparent of HealthlJd Huma Services /
                 (HS). It does this by developirigmethOds to detect and prevent frud. waste. and abuse.
                 Created by statUte in 1976. the Inspector Genera keeps both the
                                                                                 Secrta and the Congrss
                 fully and curntly infonnedabout progrs or maagement problems and reommends
                 corrctive acnon. The OIG perform its mission by conducting audits. investigations. and
                 inspections with approximately 1, 300 sta strtegicaly locate around the countr.


                                     OFFICE OF EVALUATION AND INSPECTIONS
                 This repon is prouced by the Ofce of   Evaluation and   Inspeons (OE!), one of   th major
                 offces within the QIG. The other tWo ar the Ofce of Audit Servces (OAS) and the Offce
                 of Investigations (01). The OEI conducts inspetions which ar tyically shon-tenn stUdies
                 designed to determne progr effectiveness. effciency and vuerabilty to frud and abuse.

                 The purse of thisreponis to examne how crack babies ar afectig the chid welfar
                 system in severa major cities. A separtcrepo identies     prgrsand PI'edurs
                 considere effective in workiQgwith crack adcte mothers and their babies. The study was
                 prepar under thecition of Joy Quil. Regional Inspetor General, Ofce of Evaluation
                 and Insptions, Region- llI.Pancipatig in ths prjec were the followig people:


                  Philadelphia                               Headq uarters
                 Joseph G. Whte, 
   Projecluader            Al Levie
                 Lois C. Lehmn
                  Lida M. Ragone

                 . Isabelle Buonocor
                  Cynthia R. Hasford

                  San Francisco
                  Cynthia A. Lemesh
                  Mashall Schi
                  Tricia Banniter
..
 .., "
     -   ) '
   .--




                                      CRACK BABIES





                                        Richard P. Kusserow
                                        INSPECTOR GENERAL




                 OEI- 03- S9- 01540                           JUNE 1990

.. ; .r .   - '.   ..
    . 4





                                                       EXECUTIVE SUMMARY

                        PURPOSE

                        Thi repon examines how crack babies ar afectig the child welfar      system   in several major
                        cities.

                        BACKGROUND

                        Crack is cocaine in a smokeable fonn. It fIrst appear in the Unite States durng the
                        mid- 1980' s. Although crck is on.1Y one method of ingesting cocaine, we use the terms crack
                        and cocaie synonymously in this repon as their detetion in the boy does not differ.

                        The Nationallnstitute on Drg Abuse (NIDA) estimates that over 6 mion women of chi)d-
                        bearng age are using ilegal substaces; for 1 millon this means cocaine. The President's
                        National Drg Control Strategy estimates that 100,00 cocaine expose babies are born each
                        year.

                        Prnatal cocaine exposur can lead to prematu bin, low binweight, bin defects. and
                        respirtory and neurological problems.Crk babies have a signcantly higher rate of
                        Sudden Infant Death Syndrme (SIDS) than babies who have not ben prenatay drg­
                        exposed. While most expens believe that may crk babies wi sufer developmenta
                        disabilties, the full rage of long-tenn effects of prenata cocaie exposur is not known.

                        When crck babies ar identied. local child welfar agencies ar usualy notied to provide
                        prOtective services, social services. or foster car. However. these agencies ar often unable to
                        meet the needs of crack babies and their mothers.

                        While some State and local governments have done studies on    asts    of the crk baby

                        problem, linle data is curntly available at the national level. Severa studies ar underway
                        the Federal level to gain insight into this problem.

                        METHODOLOGY

                        We conducte on-site intervews in 12 metropolita aras durng the last quanr of 1989.


                        expens.
                        Respondents included child welfare admistrtors and casworkers, hospita soial servces
                        staff. private agency representatives. foster parnts, State and local offcials. and national


                        We also reviewed numerous studies and public documents on ths     subject.
. ..   '''' . .    ...         ':.'    ""'              ~~~~~~                              ...._...'   .':: -.                '''''    . . ''''                      . " -,. .

                                                                                                                                                                              - . . ..



                                                                            FINDINGS

WE ARE ONLY SEEING PART OF THE PROBLEM

The scope of th                       problem        is wid-raging.
Ony two-th of the cities we visite could prvide the numbe of crk babies repo
the chid welfar system. These eight cities handled 8,974 crk baby cass dmig the
prvious yea. Thesecities resent 20 pent of the popultion of U. S. cities of mor than
50,00. May crk cas ar
crk babies ar                    repo
                                      unpo
                                      Some respndents estite tht only hal of the
                        The actu figus we obtaed coupled with the
phenomenon, ar constent with Prsidnt Bush's Nationa Drg Contrl Strgy
                                                                                                                                                     undepog
which estis 100,00 coaie babies bo pe yea.

We     est the cost for hospita deliver,                                      peata car, and foste ca thugh age 5, for
those chidrn who nee it, for just these 8,974                                    identi babies wi apprxite $500
mion.
Crk babies may also reui other ses.
Rehabiltave Sers                             esttes an anua cost of over $4,Dearnt
                                                              The                    of Heth and
                                                                             00 pe chid
                                                                               babies        cr
                                                                                                 Fl                                                to get
rey for school. If other                               simi1S1T seces for these 8,974
                                                    Stas in olDstdy wer to prvide

identi              adtiona costs for developmenta inteention, edcaon, and heath
                  babies, the
seces thugh age 5 could be as high as $1.5 bilon.
Whe these cacultions
crk-expse chin
                                        ses which may be reui by some
                                              do not includ any costs for
                                             afte age 5, suh cost                      wi al
                                           substati. In Pennylvan for
            yea of sp edcaon in cls
                                                                                                        be
exaple, one
yea of residenti trnt and
                                         leg diled chi costs $7,90. A
                                                      sp
                                                                                            for a

                              edcaon for                                 an emotionay ditu chid cost
$25,00 to $47.s00. Th                           averge episo of juvenie detention la             abut                                  15 days and costs
$2,20. If a juveni reuis resinti drg                                                  trnt,                   cost ca be $15,00                       or mo.
The NIA        sug     reh
                  is cuntly on the cost to counties of prvidig
comphensive ses to adct prgnt women and their                                                                          chidrn. Addtiona                       reseah is
plaed on           cost an benefits                      of   foste ca.
There is no tyical                     crllk baby.


Ther is no tyic set of sign or
Los Angeles County stdy found tht
                                                               pa pent of cridenti a coe-e
                                                                             by which to
                                                                                     ar ful                       babies                    te 2 One
                                                                                                                                                      se inant A
                                                                                                                                                              exp
                         ap heathy, do
                                                                      70
suggests th beus the babies                                                                                fruently do not detet the subtle
signs of coce expsur. Therfor, so babies                                                          ar dischaed without being                                 reognze
as drg-expsed




                         I''                                                                                         . -0. .
                                              '7t                                   7"f:-
.....          . ",.
        " - .. ....                     -.--   -------.. --. --.-..         - --'. "-   -.




                  People Are Worred About The Effects Of Prenatal Exposure To AU Drugs, Not Just Crack.

                            Crack is not the only drg threat to the lives of crack mothers and their babies.

                            Respondents want leadership and action.

                  RECOMMENDATIONS

                  Slale And Local Go).' ernmentsShould:

                            Encourage outreach and community involvement with aggrssive         campaigns
                            emphasizing the dangers of prenata drg and alcohol exposur;

                            Reduce placement barers by reviewing and revising existing laws and policies on
                            abandonment. termination of parntal rights. and interracial placement;

                            Develop guidelines and trning for child welfar sta;

                            Establish reportng and trcking            systems;


                            Expand interagency mechansms to coordnate servces and integrte         fundig.

                  The Office Of Human Development Servces Should:

                            Identify and disseminate practices considere effective in dealing with
                            drg-exposed baby cases;


                            Focus service strtegies        on serving the   famly;

                            Evaluate obstacles to placement including policies on famy reunification,
                            voluntar termnation of parnta rights, and restrctions on foster car and
                            adoption.

                   The Office Of Human Development Servces And The Public Health Serve Should:

                            Coordinate Depanmenta activities relatig to drg-exposed babies and their
                            families;

                            Conduct shon- and long-tenn research on the effects of prenata exposur.
                            treatment mOdels. and placement outcomes;
. .--.   --   -- .                                                                                                              /.



                                     PromOte drg abuse training in medical schools. hospitals. and child welfare
                                     agencIes;

                                     PromOte prevention through public outTeach and inf:'nnationaJ materials.
                                                                                                                           ;f



                     The rublic Health       Sen.'ice And The Health Care Financing Administraton Should:

                                     Continue to suppon targeted. intensive outrach   and   prenata1 care for substance-
                                     abusing pregnant women and their babies.

                     COMMENTS

                       .. .1;..
   ;..cJ comments on the draft repon from the Offce of Huma Deveiopment Services
                     (HDS), the Public Health Service (PHS). the Health Cae Financing Admnistrtion (HCFA).
                     and the Assistant Secrtar for Planning and Evaluation (ASPE). Respondents were generally
                     supponive of our findings and recommendations. Suggestions to strngthen recommendations
                     and a number 0 " technical corrections have ben incorprate into the repon. We also
                     expanded discussion on some issues in respnse to comments frm al respondents. The full
                     te\.l of comments received appear in the appendi.
                                                                                                                                                                                   . .. .. .. .. .. .. .. .. .. .. .. .. .. ......... ... .........
                                                    . . . . . .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ............................................................................................................. ..;-.. .. .. .. .. .. .. .


. r





                                                                                                    TABLE OF CONTENTS


       EXECUTIVE SUMMARY

       INTRODUCTION

       FINDINGS

                               We are only seeing part of the problem
                               The child welfare system struggles to cope

                                Most crack babies go home,
                                but many go into foster care

                                 People are worrierl about prenatal exposure
                                 to all drugs, not just crack. .

       RECOMMENDATIONS

        ENDNOTES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                                                                                                                               . . . . . . . A. 1
        AGEtJCY COMMENTS
                                                   INTRODUCTION


 PURPOSE

 This repon examnes how crck   babies ar afectig the child welfar system in severa major
 cities. A companion repon identifies progrs and procedurs considere effective in
 workig with crck- addicte mothers and their babies.

 BACKGROUND

Crack is cocaine in a smokeable form. It flIt appear in the Unite States durg the
mid- 1980' s. Although crk is only one methOd of ingestig cocaie, we use the terms              crk
and cocaie synonymously in this repo as their detetion in the boy does not dier.
The National Institute on Drg Abuse (NA) estites tht over 6 mion women of chid
 bearg age ar              using ilegal substaces; for mion ths mes coce. The Prsident
National Drg               Contrl Strategy estites that 100,00 coe-expose babies ar bo each
year.

Prnata cocaine exposur can lead to prmatu bir, low                    birweight,bir defects, and
respirtory and neurological problems.                 Crk babies have a signcatly higher rate of
Sudden Infant Death Syndrome (SIDS) than babies who have not ben prnatay drg­
exposed. Whle most expert believe that may crk babies wi sufer developmenta
disabilties, the full rage of long-term effects of prnata cocaie exposur is not known.
Four Deparent of Health and Huma Servces agencies ar ditly afecte by the incrase
in crack baby birs: the Offce of Huma Development Servces (HS), the Public Health
Service (PHS). the Health Car Financing Admstrtion (HCFA), and the Soc Securty
Admnistration (SSA). These                 Fedra agencies fund servces for crk-adte      mother and
their babies thugh             a   varety of   prgr, most operate at the State and loc level.
When crk babies ar                 identied loc chid welfar agencies     ar usuay notilC to prvide
protective servces, social servces, or foster            ca.
                                                However, these agencis ar oftn unable
meet the nee of crack babies and their mothers.

Most crck mothers ar not tenager. Most oftn, they ar between                   their ealy 20' s and 30'
with an average age of 
           2S   to 28 year.Usualy, they have between two and four other
childrn. Crk
number of Hispanics 

                            babies repo     to the chid welfar system ar
                                   d even fewer whites.
                                                                          priy      bla, with a smer

While some State and local governents have studied this issue, litte data is cWTntly
available at the national level. Both HDS and PHS have studies underway to gai insight into
the problem. The Genera Accountig Ofce (GAO) is also studyig the costs of seces for
this population. In addtion , the Ofce of Insptor Gener (OIG) is conductig two relate
inspections on the termnation of parnta rights and laws regarg prnata exposur to
substace abuse.

. -




      METHODOLOGY

      We conducted on-site interviews with over 200 respondents in 12 metropolita aras durng
      the last quanr of 1989. The sites included: Chicago, Fon Wayne. Los Angeles. Miam. New
      York City, Newark. Oakand. Philadelphia. Phoenix. San Francisco. Tacoma and Washington,
         C. We selected these sites to give a perspective on how cities of varng siz and location
      were being affected by crack baby bins.

      Respondents included child welfar adnistrtors and casworkers. hospita soial services
      staff, private agency representatives, foster parnts. and State and local offcial. We also
      interviewed national expert and reviewed studies and public documents on the subject.
'" ' , . =..
           , - .-
             L.
                          ._-()                                                          , .. - -    ' - -   ,'   .p     . ,   ,,

                                                                              FINDINGS
                          WE ARE ONLY SEEING PART OF THE PROBLEM

                          The scope of the problem is wid-ranging.

                          Only two- thirds           of the cities we visited could provide the number of crack babies reponed to
                      the child welfar system. These eight cities handled 8,
                                                                              974 crk baby cases during the
                      previous year. These cities represent 20 percent of the
                                                                              population of U. S. cities of more than
                      50, 00. Many crack cases ar unrpone. Some respndents
                      crack babies ar repone The actual figurs we obtaed
                                                                                    estite that only half of the
                                                                                 coupled with the underrportng
                      phenomenon, ar consistent with Prsident Bush'
                                                                        s Nationa Drg Control Strtegy repon
                      which estimates 100. 00 cocaine babies born
                                                                                  pe year.
                     We e:;timate the cost for hospita delivery. perinata
                                                                          car. and foster car thugh age
                     those children who nee it, for just these 8,974 identified babies                  5, for
                     milHon.
                                                                                       wi  approximte $500


                     Crack babies may also reuir other servces. The Florida
                                                                                Deparnt of Heath and
                     Rehabiliutive Services estimates an anua cost of over $4,
                     r:ad ' for school. If other States in our stdy wer to prvide
                                                                                 00 pe chid to get crck                             babies
                                                                                                    simila servces for these 8.974
                     ide rified babies, the addtional costs for developmenta
                                                                              inteention, edu ation. and health
                     ser\'kt"I; through age 5 could be as high as $1.5 bilon.

                    Whi;e these calculations do not include any costs for servces which may be
                                                                                                                 recuir by some

                        .:k :" :;:.:s:d children after age 5. such coSts wil also be substatial. In
                    exarnpk, one year of special education in a clas for a leang                             Pennsylvana,       for
                                                                                                 disabled child costs $7 900. A
                    year of residential treatment and c;pccial education for aJ emotionally di!;turbe
                    S25.                                                                                               chHd Ci.sts
                                to $17, 5() The :)ve:r:tge     pi: :)(e 
  f;l,v "i11" deientif)n lnc;t 15 day:. ",fI r! I'''IS bi),.!(
                    $2. 250. If a J'JVt!l j       UU' C:- " ;dc1.IJ;.     lt    alrnni , co.;ts can t) :1 i,:X:r:
                    Tbe     NlDA   is cUIcntly supportng res ch on ..he costs i" communities ,;
                                                                                                    ('v' : n
                                 "sive services to addicte pregnant woml n and their children.
                      1"".,,,, ","' costs and benefits                                          '\d,1.iridi f I,-S                   ir. 11 is

                                                       of foster car.

                    There is no typical crack baby.

                    There is no tyical set               of signs or pattrns by which to identi     a cocaie-ex        sed inant. A
                    ..U     . ."C";'': 

                                                                                crk babies ar full term 2 One expen
                                                Count)' study found that 70 percent of
                                     :hat because the babies appear healthy, doctors
                                                                                             fruently do      not detet the subtle
                      p:. of 
        '.Jaine exposure. Therefore. some babies are discharged without being
                                                                                                                         reognize
                                1: -"." r"'':
_-- 4. . '    e..




             Crk babies ar mor lily to be born prmatu and to have           sp
                                                                        mecal nee. Expns
             repon th crk babies ar nealy 4 tis mor liely to be bo with low bir weights
             (under 2500   gr      or about 5. 5 pounds) than babies not expse to   drgs in Ute.
             An     estite 18 pent4ofOne
                                      crkrespndent
                                           babies ar bo prma with complicatons and reui
                                                   told us
             extende intensive ca.
                       that morn tehnology alows physicians
             to save may babies who would not have surved even a few yea ago. Th is espaly
             tre of the   ver low bir weight    babies (5001500   gr, abut 1 to 3 pounds).. .
             Some                  sp
                     crk babies reui                af hospita dichae.
                                                 medca attntion
             ar designat as medcaly neey and reui sp                seces frm their mother or foste
                                                                                                   These chidrn

             fames.
             Most crt1c babies Il    not   idntfid li bir
             Inconstent testig is one reon may   crk babies ar not idntied at bir. Accorg
             respndents, publi hospita ar the only ones testig; most prvat hospita and physici
             do not test. Whe no Sta visite madas unver testig of mother for contrlled
             substaces, Indian dos reui        tetig if ther is suspicion of drg    expsur. One hospita in
             our saple    te al newbo.
             The majorty of hospita in our suey rely on mother to self-
             us th as their   pr                                            re drg
                                       methOd of identication. Some respondents crtici
                                                                                           use. At leat four
                                                                                                   usg ths
             methOd exclusively. A suey in one Florda hospita found only      27    pent of the prgnant
             women testig positive for drg us at la an dever ha            adtt       their use.




             Five of 13                      teg prtols, and thes va in deta and sc.
                          hospita visite us spc
             Testig crte ca include suspte drg use,la of prna ca, prma delivery,
             neona intensive ca adsion, and indicaons of a sexuy trsmtt dise. Some
             respndents ar
             prtools me
                              conceed th relice on self-repog and the absence of
                             tht low-  inco
                                                                                       testig spc
                                           and miorty women ar being teste whie white and midde
             clas women ar    not.   Th results in mo miorty and low-income babies being identied as
             drg-expse
             Even when tests ar conduct they       prvi only    lite inortion. Most tests can detet
             coaie in the system for only 24 to 48 hour.
             Crll1c babies IlIe   fue problems.
             When consideg how soety wi de with            crk
                                                             babies, some respndents emphas that
             the envinmnts in which these      chin ar
                                                     rase wi playa major role in their
             development. In one exp s view, the   re
                                                    issue is how much dage is acaly attbutable
             to the chid' s home envinment as oppse to in ute expsur to drgs.
                                                                                          ' .        /.




May respondents ar     concerned tht  drg-expose babies wi sufer long-te prblems.
They caution that the effects of cocaie expsur may not appear unti the age of 2 or
These effects may include neurlogical and behavior problems, attntion deficits, and             :f

developmenta delays.

May respondents wor what wi happen when crk babies reach school. Those who have
worked with crk babies say the chidrn wi have sever leag disabilties as they grw
olde. We were told, "These chidrn nee speia education. If they don t get th we ll se

spial curculum for
Chcago.
                                                                      si prgr
them in juvenie cour late. " The Los Angeles Unied School Distrct has develop a
                       drg-expse babies at the preschool level.                         exits in




May chidrn ar stayig in foste ca   longer. As rently as 1985, nationwide mean
foste ca  stays raged frm 9 month, for those who ha left foste        ca,
                                                                   to 1.5 yea, for

those who sti rema. However,         offci
                                      fr 2 cities in our suey          repo
                                                                        the          cunt
average lengt of   stay as 3   yea and 4.   yea respetively.
Chdrn ar also enteg foste ca           at a younger age.   Accg to a rent New York State
repo "In   1980, only 19    pent of the foste ca     caloa     was unde 5.   Tody it is over 50
pent,   pry due to         crk. ..


Accorg to sever respndents, crk baies            have   mor prblems  th other
                                                                      bondig
babies. Researher repo tht even in the ca of their natu parnts or a peent fostr
parnt, crk   babies have diculty bondig. Some           reseher attbute a pon of
prblem to organc dage cause by the drg           exposur.


The followig grph depict the potenti populaton of drg-expse chidrn bo th
dead,   bas on curnt anua estites of crk- , coce- , and drg-expsed birs

Whe the prjections shown assue no change in anua drg-expsur                  birs, ther ar
indications the numbe of drg-expse birs is incrg. In Caora, th hospita
re thean num
re                of drg-expsed bir have at let doubled sice 1986. One of these
           84 pent incr in 2 ye.

Inteewees tell us    the   afhocks of the crk     epidmi   wi be felt by soety for may
yea. As one respndent sad, '      ven if we    sto      crk use right now, we woul st be
deg     with its effects in som way for the next 50 to 75   ye. The racaons ar
forver.. s a horble cycle!"
                                     --                      - -.
                    -........................................................................
                    -................................................................
                    -..............................................................         . . ......-....:.......
                                                                                            .....
                                                               :::. : .- ':................................
                     .........................................................       . :=-...................
                                                                                  ':'''..''.'''''''''''''''.
                                                                                ...........
                                                                                   "' .                      ' .."."
                                                                                                                ::. .:.




                    Projection of Drug Exposed Children by the Yesr 2000
            4,1
            4,1
             1,1
             I,
             1,1



             I, 1-...........................""'."'......""""'''


             ',1 1-.........................."""",,,.,, 




             ',I    1-........ ..........





                      I.
                                                             Nwbe of
                                  LO I8TE                   IITlI8TE                      IDunTE
                                                             .. Du                         01 '
                                                             CI"'

AN ALREADY OVERBURDENED CHILD WELFARE SYSTEM STRUGGLES
TO COPE.

Crack baby caes ar compUct*d                     tU ti-consming.


                   vite incrg                                                                              rela The New
                                                            pry cr frre
In most cities     an         majorty of chid welfar cas ar drg
York City Mayor s Tas For on Chd Abuse and Neglec           a 72                                          pent incr
chid abuse JCla to drg dendnc,                        1985 to 1988.

State   offci contend tht cr                  baby cas        ar mo complex th                     other chid welfar cas.
One offci sad, "  Cr us reprsent a diernt kid of (pteve seces) extensve
ca. TheJC is a lot mor abandonmnt an vio enc. Cr         reui                              baby caes
trkig and follow-up. Th ca be dicult for caewor to prvide when confnte
with the reties of an aly overhelmg caloa

Drg us ca          sup
                     al other                  as
                                of the lives of cr-adte mother. In the word
of one cawor, worg with the mother "i li betig your hea agat a brick
wal...beause you ar deg with somne who ha no contrl over her lie. She s wored
about her next hiL



Caework ca spnd days trkig mother who give false adsses to hospitas and then
abandon their babies. Oter ti-cnsumg acvities include fidig emergency placements,
foster ca, parnta drg tttmnt, and seces necssa for spal nee                                                    chin.
Chid welfar caswor is a dagerus job, acorg to sever respndents. Caeworer
home evaluations ca    involve enterig hostie        sitUations, unescon and without        rao
contat. Peronal dager, strss,          and relatively low pay contrbute to casworke burout or
resignaton. One city offci         repo ha of the sta had ben workig less than 1 year. In
another city, the average tenur of a chid prtetive worer is 2 yea. High tuover results
in lak of servce contiuity and complicates legal
may work on a case over the yea.
                                                         prgsbeause severa caworker



We found lage chid welfar     wor caseload in may cities. For example, one chid welfar
agency offcia report an averge    caeloa of 49 chidrn for foster car and 161 for
protetive seces.     The    Ch Welfar Legue of Amerca reommnds not mor than 17
acve cas for    wor deg with abused or neglec chidrn and their fames.
Prentl expsure       to drgs nu        not be trlld IU   chi liuse.
Babies who test positive for contrUed substaces ar not always            repo to chid welfar
                       tan   depend on how a Sta defies chid abuse               or   neglect. These
te
offcials. The actions
      ar not intehageable and the distiction ca be signcant. The Ofce of
Gener is curntly conductg a stdy    to assess how          Sta
                                                      legal defitions afect the
                                                                                              Intor
handlg of prnata drg expsu                cas.
Indi law prvis tht a chid bo                ad
neglecte In For Wayne, the baby and any sibligs ar
                                                      to drgs ca   be conside abuse
                                                              pla in      prtetive custOdy pendig
an investigation. An Dlois        law effecve    Januar 1, 199     states thtprenata drg exposur

is evince of neglect.

Ony four States vite reui hospitas to repo a positive toxicology to the chid welfar
agency or a centr Sta registr. 'Some hospitas in other sites visite mae refers
voluntay. At one site, hospita have ben instrcte by the chid welfar agency to repo
cases only when the mother coul not ca for her chid. In another city, drg expsur cas
                       if   acoman by other facto, such as mother self-identication or
              re.
 ar investigate only
 pror abuse

 Several chi weUar agencs ar usng new /iproaehes to dell wi                       crtk bliy ClUes.
              have     9ni7OO high-ri drg baby         unts to prvide inta        and rik assessment for
 Some citis
 drg-expse inants.          The   cawor        assigned to these unts ar spy
                                                           her chid. In at
                                                                             tred to
                                                                              city,
 with the nee of the substace-abusig mother and                                 leat one

 caworkers in these unts have ICce caload.

 One child welfar    agency   dentr
                        physicay
                                  haserces into zones and comunty distrct.
                                       to the fames they
                                        locte close               enables   see. Ths
 Caeworers ar now
 caworker to prvide bett suppo for fames and beme more                          fam with local
 servces.
. .   . ,




                                                                                  York City   tred 1,264 new caeworer
            Cities ar   prvidig mor casworer trg; New
            in 1989. May respndents felt tht      chid welfar                    worers nee mor
                                                                                     casworker
                                                                                                   trg       to identi and
            assess the nee of substace abuser and their chidrn. Oter respndents sai
            nee for gulies for           mag
                                           desions regardig                         teation
                                                                         of parnta rights.

            Hospit Il beginning to perform        chi welftlfunctions in some ci&s.
            Sever hospita offcis told us that bese chid welfar agencies ar that
                                                                            overhelmed they
            ar tag acon. They say hospita caot aford the fiancial losses result frm              ret foste parnts.
            extende unecssar stays. In some cities, hospitas now actively
            espy among their own sta. Some hospitas now ma placment reommndations to
            chid welfar.

            Sta at sever hospitas now locat, prvide, and coate seces for crk-adct
            mother and their babies. Oter hospitas                  have   begu to trk clients afte dichae.

            Intragenc coordintn helps chi                 wel/Me "gencies cope.

            Lak of coodiaton is the most dicut                 prblem            fac in prvidig serces to crk babies
             and their fames.  acgadssig
                                    to may respndents. One inteewee sad, ' 'Itegency cae
                                           th         anytg wor.    issue, if
             magement is the key to

             Some States and prvat agencies ar taklg the issue of
                                                                              Dlois ha acoation.                     prgr
             of collabtion among chi welfar, alcoholim and substace abuse. and
             The cooate      effor ha "reuce systems baner to integrte seces and alowed for a
             fu complement of servces to be      ma
                                                 avaiable to high-ri fames. ,
                                                                                                     ,8 rela prgr.

                                                                                                             in
             The famy cour divion, attey gener' s offce, and chid
                                                                  welfar                            agency

             coo       seces by "fast trg" cas thugh the system. Fas trkig
             wher the cour agr to set aside spc tis to hea dependency cas. Mi prss
                                                                               offci
                                                                                                              is a




             repo th  th prss ha alowe for mo and fa             nt deons.

                                                                       the crk baby
             In may sites, goveror or mayor have crte ta fors to adss
                                                                        meca and chid
                                              citins, governt offci. andsece
             prblem. Staed by prvat
              development   exp, the ta       fors        identiy aDd pul together                   prvi, remmend
                                    monies for seces to high-risk fams.
              policis, and integrte 



              Comprehenrve clle    1Igement          is    essent           in    helping crll1c-lted mothers tU their
              btlies.

              Cae maagement consists of guidg fames to seces such as eay intention.
              educaton, heath car, counlig,
                                            physica therpy, drg rehabiltation, and parntig clases.
                                                                    seces on their own does not
              Respndents say that reuig clints to sek out suppove                  overwhelmg
                        crk adct. Client nee ar so complex and their adction so
              work with
              tht prfessiona ca magement is                nee
..      . . _--
 . .." ,--
       .'        ..
            . - ,.    --                     ---- -   -" .    "'- - --'
                                                             _-.          -'- -.' ._.   ._-              ..-        . - _..   --.
   :"J                                                                                        n. ..--­                              -- n ­




                           The cas maager is an advocate who lea fams thugh the system. In the wor of one
                           respondent, it is unalstic to expt a crk-adcte mother to meet the "demads of 8 to 10
                           dierent sece provide simultaeously."                                        maager ca
                                                                                                         A case            and motivat mothers gu
                           and supese car of the chidrn. Ca                                     maagement is widely sen as the respnsibilty of
                           the chid welfar agency.

                           Successful cas maagement reuis tht seces be rey acssible, accorg to may
                           respndents. They emphas the nee to locate servces in the counity and prvide
                           trsponation and chid car. Their most fruent comment was tht centr locons with
                           multiple serces wor best; "one                      stop ca," sai one                              caewor.
                           Even when seces     ar availe, however, crk                                             mother don t always parcipat.
                           Accorg to respndents, crk   adC1on results in demadig, imatient behavi.                                                                Crk
                           mother someties deny they have a prblem and refuse serces altogether.

                           MOST CRACK BABIES GO HOME, BUT MANY GO INTO FOSTER CARE.

                           Most babies go home wih mothr Dr II rellve.

                           Although few sttistics ar ket, respndents offer                              pena
                                                                                        insights into the demogrphics
                           of crk baby fames. USuy SO to 75                of identied            pent       crk
                                                                                               babies go home with their
                           mother or a relave, although the rage is SO to 95        at the sites       pent      vite
                                                                                                          At two sites, a
                           baby is put into tempo prteve custoy (for up 10 72 hour) whie the chid welfar
                           agency investigats.



                           Matern grdmother ar the relave most lily to tae the baby. Most chid welfar
                           worker tr to plac a baby with the grother befor mag any other kid of plament
                           Respndents at five sites say grdmother, who oftn                                                   ca for sever chin,             ar
                           overwhelmed by the nee of drg-expse                                                 babies.    Ofci repo fater ar raly
                           involved with the cutoy of the baby.

                            Some relaves   reive foste ca                                   agencies prfer
                                                                                  reimburements. Most chid welfar
                           relative to foste plaments, but relaves often caot afor to ta  ca  of the babies. New
                           York City prvides State-apprved relaves with fost ca reimburments, but opinons on
                           ths appach var. Whe soe believe th apph is fai and results in bett
                           monitog, other say such                prgr
                                                                delay reuntion of mother and baby, crte famy
                                                                                                                ca st.
                           antagoni and     petUfrd.  the bay s foste          At lea one respndent sad
                           crtes oppoties for
                            When mother ente      drg         trnt                  not acpt
                                                                                         cente tht do     babies go to
                                                               restrctions agast inants may be due to insuce libilties and
                                                                                                                                             inants, their
                            relatives or foste ca. The
                            the trtiona adult orntaon of trtment                                               progr.
                                                                                    Some mother must atnd out-patient
                                     progr            as a condition for keeping their babies. Respndents te us some
                            drg tratment
                            motherdr       out of trtmnt or resu usg drgs, but most trtment                   do not                                    prgr
                            trk redivi among the mother.
                                ....... ........... .................. ...... ....................
                       ............ ................................ ....... .......




Many babies go into foster       care.


Most offci estite 30 to 50         of identiie crk babies go into foste
                                      pent                              although                          ca,
a rage of 5 to 50 percnt was        repo
                                    Accorg to some off. chin may be left
with their natu parnts beause no foste plaments ar availe.

Ofcials in Chcago. Newar. and Washigtn, D. C. repo crtical foste car shorges, but
other ar coping. For Wayne and Phoeni have litte diulty fidig foster fames. Both
cities have compartively sm            num
                                   of drg-expse                            babies.
As shown in the char below, the          num of chidrn in foste ca                      plaments          ha incred
On a given day in 1982. ther wer 262,00 chin in plament; 280,00 in
                                                                   1986; 293,
in 1987; 330,00 in 1988; an an stmate 360,00 in 1989.

                                         Children In Foster Placement
                                                        Ony SUy


                  11 ....... 





                   .,0 .


                                         tll                                      tll
                                                          Nu     In        ..It

                   ..: M8 NI.. II              Ct




  Respndents spulte the           incr of chidrn in fost cathisconnection
                                                                due to incred parnta drg
  abuse, but   ths caot    be   conf Dat to demonstte                     is not coUecte
  nationwi by chid welfar agencis.


                                                                                        shorge of foster parnts.
  Low reimburment was the most commonly cite                          reason for a

  Respondents say reimbmsements ar                  to low   to attt fu-tie             foste   parnts,     spialy for
  medcaly neey babies.
Rate schedules ar complex and lack unorty. Varables afectig rates include the chid'
age and heath, the placment agency, and the servces or pructs that qual for
reimbursement. For examle, one city has eight categories of reimburment for inants wh9
do not reuir consistent medcal attntion and four categores for inants who do                  reui /
consistent medca car. With eah categor, chid welfar ha the flexibilty to determe
the exact reimburment rate. Over, reimburment rages frm $3,233 to $30,730
anualy.
Respndents also repo shorges of black foste parnts and homes that acpt inants. .
five cities respndents repo a parcul shorge of homes for inants with
                            intm plaments, the babies
                                                                          nee.
                                                                   ar prmiantly
                                                                                sp    blak, but there
                                                                                                        In
ODe State tht restrcts
a shorge of blak foste parnts. To de with the demad, some agencis put mor chidrn
in eah foste home, shit           chin
                               betWeen homes,                  sear
                                                    sibligs, and pla chidrn

grup homs.
Respndents told us repeatey tht foste parnts nee                   trg
                                                        and suppo servces.
Accordig to one respndnt, ther is a colation betWeen such trg an a foste parnt
wigness to contiue. Oter commente tht foste parnts nee day ca (regu and
therpeutic), trsption, respite, and bett                 acss to physical and menta heath       servces

for their foster chidrn.

 In sever cities, outrh           effor have pruce        goo results. Strtegies fruently
 incorte newspaper stoes, rao                           ta shows, and paid advering. Oter
 retmnt      appaches include

 offerig bonuses to fost parnts
                                             and TV
                                            m1n g prvate fost car
                                            who   ret
                                                                      agencies with   sp hospita,
                                                         other foste parnts, and worg with loc
                                            Ch welfar agencies and privat agencis ar
 churhes and communty grups.
 expandig the pol of potenti foste                parnts by   acptig singles and ful-    ti   employees.

 Although outrh                         result in an outpmig of       coty respnse, the numbe
      acy be
                         effor oftn
 who                            fost parnts   is lowe   th the numbe who aply.Some applicats
 disquaed whie other lose intest Respndents also say ther ar obstales to incring
 the pol of foste parnts and keping them. These include reuiments that foste parnts
 live with  ce     geogrphic lits an restrctions on                 intm
                                                             plaments.

 On the other had,       so
                       respndents say tht                stada
                                                       for foste parnts have                  delied
 Accordig to a West Coast            cawor,
                                     applicants with '         'm''
                                                                  quacatons who would
                                                              acpte
 have ben nued away a few              ye
                                 ago ar now being

 Ajew go to othr       care      settngs.

  Crk babies ar oconay pla in other argements, such asa emncy      or congrgate
  car. Emergency car is a tempo plament pendig retU to
                                                        parnt or placement in

  foste ca. Emergency ca ca  be a                 sm grup home, a      lare shelte, or    a foster famy.
  When a long-te placment caot be                   ma, caworker may be for              to move babies
...   .' .




             frm one emerency placment to another. Two cities repo                tht they nee but do not have
             emergency placment facilties.

             Congrgate car is usualy perment grup home. Whe use mostly for olde chidrn,
             some babies have ben         pla
                                         in such ca. Ofals in one city reived strong public
                                                                          result, al babies orgialy
             crticis of the car provide to babies in congrgate car. As a
             pla    in congrgate car have ben plac in foste homes. Washigtn, D. C. is now
                                                                      crti
                                                                    foste           ca
                                                                               shorges.
             buidig two grup homes for inants to cope with

             We encountere strng opinons about congrgat ca. Of 58 respndents who commnte
             nealy ha (27) believe congrgat ca ca work as a substtute for foste ca as long as the
                            sm, kep                           and ar maaged prfessionay. Twenty-one
             homes ar
             respndents
                                          sibligs together,
                                  th congrgat ca       is a badid          mi
                                                                     10 have     opinons.
             A few babies go with their mother to residenti drg trtmnt cente. Mother and babies
             sty at these cente frm 6 to 24 months, dendig on the             prgr
                                                                           and the mother
             trtment nee.             Seven citis   vite have at leat one such cente, and respndents say may
             mor ar n
             Som babies rema in the hospita even though mecay rey for dihae. Known
              boar babies," these inants sty in the hospita due to legal colications, questions abut
             parnts ' abilty to ca for them, or lak of ca alternves. Respndents frm five cities with
             bo
             repo
                      babies say they ar able to        ma
                                                      plaments in
                    they ar not able to ma tiely plaments. The       th
                                                                             tily
                                                                            maer. Four other cities
                                                                          remainin g cities did not
             the issue. Mor          inoronon    issue is prsente in our companon repo
                                                      th                                          "Boa
             Babies.

              Few crack babies lue          been    tUP"d.
              Whe respndents          adtion to
                                       prfer               peent
                                                          foste ca, opinons on adtion verus
                                                                                                       fay
              famy reuncaon dier wily. May respndents sad the exig policy goa of
              reuncation is         uncfor may            cr
                                                    babies and sily prlongs the adoption prss.
              But other feel strngly th chid welfar s goa of fay reunon shoul rema.

              Th adtion prss is long, dit, an expDsve.                     Acg
                                                                         to a rent        frm a re
              chidrn advoc grup, cawor gug the prss nee to be mo                    aggrssive
                                                                                 reluctt to apprve
              chaenge the hures of the adtion prss, to fac a cour which
                                                                           seems
                                                                obstales of the agency prss
              adtion, _..to (confnt) the parnt, an to negoti th
              itslf. ,,

              Most prspetive parnts want             babies. Ofals tell us tht   teaton of parnta rights is
              usualy conteste and          although the prss ca theoticay be coplete in 18 months, the
              rety        is at   leat 3 yea. By then, these chidrn ar less liely to be adpte they ar not
              babies anym.
1.   i-.
           .:.



                 Respondents cite other hidrces to adtion. One referr to a law whih reuis a
                 72- hour waitig periOd for a mother to voluntay reliquish parnta rights. Th respndent
                 ad     that a crk mother may dede to reliquish her rights when her baby is bo, then
                                                                                                       loc
                 leave the hospita and disappe. Neither hospita nor chi welfar sta ca         her. When
                 th happens, the baby canot be ma avaible for adption unti the legal                   prss
                 comlete.

                 Another long-stadig barer to adtion is the bias agait                  intc
                                                                                  plament Some
                 respndents say white fames don t want blak babies; other say States and agencies
                 slow to apprve intemc adtions.

                 May respondents believe tht even if parnta rights wer                teate most crwig
                                                                                                   babies
                 would not be     adte   One caworke fry                     sad ther ar not   enough pele
                 adpt " these kid   of chidrn. " Prspve              parnts fea     long-te effec of crk and
                                        medca, edcaona, or psychologica nee. Adption                      subsidies for
                 potentiy expnsive
                 ha-topla         chidrn, availe in al States, ar being used in som cities            vite
                 PEOPLE ARE WORRIED ABOUT THE EFFECTS OF PRENATAL EXPOSURE TO
                 ALL DRUGS, NOT JUST CRACK.

                 Crllk   is   not th   onl,   drg thretl to th   li)'es of   crllk mothrs tU thir babies.

                 On the West Coast, the next drg cris is          aly
                                                               her. Chi welfar agencis ar prparg
                 for babies    bo
                               to user of a methamhetae devative caed "ice." Although ice is mor
                 expnsve than crk, the long-          lag
                                                     high mas it                 attve
                                                                          10 drg abuse.
                 Methphetae is known 10               prce
                                                       raid extensve feta dage.
                 May respondents,         espy
                                           on the Eat Co we conceed abut the ovep of AIS
                                                                                           cr
                 and crk. In the wor of one           off
                                                    "You ca sear th         baby prblem frm the
                                                                                                                  deg
                 AIS prblem." Th over of AIS an drgs for these inants oftn me we ar
                 with the sam ri grups, offerg the           sa
                                                       messages, and oftn prvig seces to the
                  sae babies.
                  Respndents sad may             cr-adct womn engage in high-             ri    behavior and

                  AIS-inecte babies. Fuly 70 pent of peatrc AIS cas ar the result of drg abuse
                  by the mother or her sexua par. A loc heath offci sad, "AIS is now th laest
                  kir among young women (her). We may not have to wor abut (crk baby) mother;
                  they ll al be   de"
                  RespoJUnts want letUrship           II Ilti01L
                  Respondents     repey    caed for stng leahip, acurte inortion, and heightened
                  public awarness. They point out that crk adcts use so may other drgs and alcohol that
                  it is futi to taget just     cr
                                                Although ther is no clea consnsus on exatly what to do,
                  peple expss a sens of urency.
One suggestion by respndents was to establih a national commssion on prenata drg
exposure. Many respondents point to the succss of the National AIS Commssion in rasing
awareness and educating the public about prevention. They urged the HHS       Secta      to tae
this proposal to the Prsident. These respndents     se  a national commssion    as a way to
galvanize public attention, promote grater parcipation by State and local governments and
the private sector. and generate potential solutions. It was suggested that this commssion be
drawn from the public and private setor, and include represcntatives from a wide varety
disciplines, such as education. health, child welfar. substace abuse. justice. and housing.
...              --'
      . ':..-.. :-                          . - - _.,- -- -   -_._.. . _.._-    - ,.   -_.   _., .




                                                                           RECOMMENDATIONS


                       We agr with respndents that the prblems of crk babies ar inseparble frm the lager
                       issue of prnata expsur to al drgs and alcohol. We also reogn tht the impact of
                       inants prnatay expse to drgs extends beyond the purew of th Deparnt. Whe we
                       reogn tht some policy issues rema unsolved our reommndations focs onfudig. acons
                       which we believe ca be accomplished without adtiona  authorties or                                           signt
                       STATE AND LOCAL RESPONSIBILmES

                               Encourage out/Ih lI communit                                     involvement          State and   loc governts
                                                                prvi prnata ca for at-rikor prgnt
                       1.

                               should conduct aggrssive outrh to
                               women. These effor must emha the dager of prna drg
                                                                                            alhol
                               expsur. Communty and religious grups shoul be involved in idntig and
                               helping mother and chin at rik. It is impot to wor with loc blak and
                               Hispanc   lea.
                       2. Redue plaement bllrs                                  Sta and local agencis should                  reuce     bar
                               placg drg-expse inants into foste ca and adtive                                                         Th includes
                               reviwig and reviing existg laws and policies on abandonmnt,
                                                                                                                           homes.
                                                                                                                                        teon
                                                                                                                                       'fas tr"
                               parnta rights, and inteal                          plant. Cour should establish '
                               procurs to expte chid                           welfar caes involvig drg abuse

                                                                                                                                           chi
                               Develop guUnes tU trllnig.        Stas should develop gudelies for
                               welfar agencies to follow in respndig to drg expsur caes
                                                                                           and in
                                                                                           assessment, famy                  ri
                                                                                                                                          trg
                               caworke to hadle such caes. Guidelies shoul cove                                                             tred
                                                             of parnta rights. Caworke should be
                                                       teation
                               reuncaton, and
                               identiyig substace- abuse behavior,                                   reorg drg histors,           and   dontig
                               evidence for cour

                        4. EstlUsh reportg tU tr/Ildng                                  "stms                 States should estalish   crte for
                                                  repog prna drg expsu as chid abus. Extig State
                                idntiyig and
                                chid abus   reg
                                The inortion should be
                                                      an trkig systems should be expande and compute
                                                                               us not only for legal pmpses, but alo for the
                                prviion of heath              ca        and     edcaon.
                                                                Swc and loc govents should develop
                            S. Ezpll inmgency mec1ums.
                               intitives such as ta fors to                            coate ses
                                                                             and integrte fuds. These

                                intitives shoul involve cour and prseuto to review policis and expte
                                legalpreegs      involvig drg-expse babies and their fames.
                                                                                                  / "





DEPARTMENT OF HEALTH AND HUMAN SERVICES RESPONSIBIUTIES

Offce of Huma Development Servce

1. Disseminat   effective practices.
                                          Hum Development Serces
                                                     'Te Ofce of
   (lS) should identiy pratices, prgr, and laws or reguations conside
   effecve in dealg with drg-expse baby cass and dissemiate th inortion
   to State and local goverents. 'Te HDS should also underte studies to
   evaluate the effecveness of these prtices.

   Foclls serve strate s on servng          Because of the rapidly grwig
                                                       th jamily.


   number of drg-expse babies, most wi be raed in their natu fames.
    May fames                                    wi be compunde fuer
                   aly have multiplefac by drg-expse    prblems, which
    by havig to de with the prblems                  babies. In developing
    its serce strtegy for these babies, the HDS should plac priorty on             prvig
    nee     inteentions with the famy, to help ensur tht drg-expsed chidrn
    grw up in cag     and suppove                    fay
                                             envinmnts.

3. Evtzuate obstlles to          The HDS should evalua obstles to foste
                               plaement
                                                                                           and

    adoptive placments,        espy
                              as they relate to drg-expsed babies.
    exaation should include CUInt policies regarg famy reuncaon,
    volunta parnta teation, and restrctons on foste                      ca and adption.
Offce of Huma Development Servce and the Public Health Servce

    Coordi Deparnt                    The HDS and the Publi Heth                   Ser
              cote
                                          activis.


    (P)     should         Deparnta acvities relatig to drg-expse babies
    and their fames. Th reomndaon could be achieved thugh the expansion
          inor     coon
                   integency             activities of HDS and PHS.
    of the 

               fr
    Reprsentatives      the followig HH  conents shoul be include:
          Ofce of Hum Development Seres
          Publi Heth Serce
              National AIS Prgr Ofce .
              PHS Pael on Women, Adolescnts, and Chdrn with mv                       Inecon and
                AIS
                Alcohol, Drg Abus and Menta Health Admstrtion
                Buru of         Mate
                                   and Chd Heth and Resoures Development, Health
                Resours and Serces Admstrtion
                Nationalnstitute on Chi Health and Huma
                                                        Development, National
                Insttutes of Heth
     '...-
:J




                         Famly Suppon Admnistrtion

                         Health Cae Financing Admistrtion
                         Social Securty Admnistrtion
                         Assistant Seceta for            Planning and Evaluation


              Conduct short. and long-term research. 
              The liS and the PHS should conduct
               both shon- and long-tenn research on the effects of prenata exposur to drgs.
              including crck cocaine. on babies and their mothers.

              Specific aras for shon-term researh include:

                        determning optimal tratmnt for cocaine-addcte              mothers durng pregnancy
                        ensur the birof a minimally afected inant;


                        examning the risk factors respnsible for drg abuse so effective prevention can be
                        implemented; and

                        establishing a monitoring system to surey the extent of the crk epidemic,
                        espeially among women of chid-bearg age.

              Speific aras for long-term reseah include:

                        :udying the long-rage effects of prenata drg exposur on physical.
                       psychological, and neurlogica development longitUdial reseah on these
                       topics could conceivably tae up to 15- 20 yea on the same subjects, with annual
                       or semi-annual repons of findigs            reui;
                       evaluating long-tenn outcomes of varous tr:)tn' I't mod Jitje! in red cing or
                       eliminating drg use by women of child- bearng ag who it             aJcte
                                                                                             to crack
                       cocaine or other drgs; and

                       asSessing perment placement options and outcomes for drg-expose babies as
                       compar to other babies and chidrn in the custOdy of chid welfar agencies.
                       The long-tenn resources           reuir
                                                     (stafig as well as fundig) for each of these
                       groups could also be compard.

             PromolC drug abuse training. 
 The liS and the PHS should promote drg                abuse
             training in the following areas:

                         k.dical schools and hospitas - Most physicias ar not traied to reognze the
                       signs of      drg use. As a result, physicians ar faing to identi may prgnant
                       women who ar using drgs              as well as newbos expose in ute.    Medcal school
          and continuing education curcula could. include: identifyipg drg abuse
          behaviors, documenting drg and lifestyle histories, and reommending
          appropriate drg trattents.

          Child welfar agencies          - MOdl trning materials should be develope   and
          disseminate to State and local child welfar agencies. These materials could
          include: techniques to reognize and assist drg-abusing famlies and their
          children and examples of successful case management tehniques. Traning
          IJ.aterials should also address parallel servce delivery problems such as providing
          prenata car in drg trattent                progr
                                                      and drg tratment in prenata care
          progr.
    Promote preventin through            public outreach and info17onll matris.
    Existing anti- drg   messages do not sufciently emphasize thedagers of prenata
    drg exposur. A comprehensive strtegy should be develope to taget al women
    of child- bearg age. including tenager, as well as junior high and midde school
    students. MOdl brochurs (including eay to              re
                                                      ilustrte forts) and public
    servce announcements ar among the possible appro&;hcs.


Public Health Service and the Health Care Financig Administion

    Continue to support    t/eted outach tm prelUll CIl.   The PHS and the
    Health Ca Financing Admnistron should contiue to suppo               taete
    bt:nsive outrach intervention and prenata              ca
                                                 for substace abusing pregnant
    women and their babies. Ths includes identiyig and disseminatig prctices
    which encourge community involvement in prenata             ca
                                                          outrach and education.
''   .'   . r:- -




                                        COMMENTS ON THE DRAFT REPORT

                Commnts reeived frm HDS, PHS, HCFA and ASPE wer genery              suve of our
                                                                   reflecte a thoughtf reviw of the
                fidigs and reommendations. Al respndent comments

                dr   and may excellent suggestions wer ma. May have ben incorte
                                                                                       into the
                                                                                   in the appendi.
                repo In adtion, the fu text of the commnts reived ha ben include
                    The re   wi fid much   adtional usefu    inortion in these comments.
                    The HDS and ASPE reueste mo deta on our cost esttes for hospita deliver,
                                                                      ths inortion to them.
                    peata ca, and foste ca thugh age S. We wi prvide
                    The HDS felt tht whi the selecon of cities as the sour of
                                                     th
                                                                             inoron   for the
                                                         the prblem of inants expse to crk wa
                                                                                               rewas
                    renable, ther was an imlicaon
                    urban phenomenon. We be1i e tht the purse stament of the stuy cleay defies
                                                                                               that we
                    exaed the afec of crk babies on the chi welfar systm only in sever major cities.
                    The HDS    al       re
                                   felt the    woul be stngtened by prvidig fuer dontaon.
                    have respnde by indicag the sours of da in cha and by       prvig spc       citations
                                                                                           feel
                    in footnotes. Since we intewed sever respndents in eah city, we
                                                                                    di not      tht  an

                    itemion of the numbe would ad signcatly to the
                                        adg hospita st to our State and local reommndation     on
                    development of gudelies and trg for chi welfar sta. Ou
                    The ASPE suggeste
                                                                                 rendaons to HDS
                    and PHS aly adss prtion of such trg in meca
                                                                              schools and hospita, and
                    believe th is the most effecve apprh for adssig these
                                                                            ar with heath prfessiona.
                    With respt to our rendaon           on integency cotion, PHS and ASPE pointe out
                                                                       so  seces. We agr, and have
                    that crk baby issues relat to public heath as well as
                    moded our remmndation to       refl                 na
                                                            the crss-cttg    of the prblem.



                                       th the re               raer th jus th cr for of coe.
                                    re   we have us the te cr and coe syonymously as their
                     The PHS suggeste               foc on


                     As stte in the
                     detetin in the boy do not dier an may respndents adsse
                                                                             their conts usg
                     the   te intehagely. .
                              ar     th re                the      faied to diuss the avaiilty of drg
                     Another
                     trtmnt
                                  of PHS conce was
                               prgrses di
                                        for prgnt women. We have include descptions of
                                                                                           suchprgr
                     and other tys of                  to the drg expse  chin    and fames in our
                     companon repo "Cr        Babies: Modl Prgr.

                     The PHS also prvide sever tehnca conts, may
                                                                 of which we               incmte in the
The HCFA suggested we reword our reommendation on expande availabilty of prenata
care to at- risk mothers and their babies. We agr and have made the suggested change.

However. because of space considerations we have not included the American Bar
Association s monograph  Drug Exposed Infanls and Their Familes: Coordination Responses
ofrhc Legal, Medical and Child Proleclion Syslem which PHS provided with its comments.
" .       : , ..- -                                                   " "- --- - " ,'-- . -   --                                             /'
                                                                                                                                            / "
. a. ,_




                                                                                 ENDNOTES

                          Vilova Universty, Hum Orantion Science IntitUte. unpublished
                          1990.
                                                                                                                             Drg
                      2. D. McAlter, County of LosDrug-
                                                  Angeles. Deparnt of                                     Health Servces,

                          Abuse          Prgr          Related Costs in the Coun of
                                                    Offce. 1987
                                                                                                                         Los Angeles,

                          Septembe 1988, p. 17.

                           State of New Yor Senate Commtt on Investigations.
                                                                             Taxtion. and
                                                                                                   Sha of                Dembe 20,
                          1989, p. 4. 

                          Governt             Options,
                                                                  Crack Babies: The                         New York,




                          (MAlste, 1988. p. 17)
                      5. E. S. Bandstr B.W. Stele. G.T. Burett D. C. Paow. N. Levandosk. and Ethc
                          Rodguez. "Prvalence of Perta Coaie                   in an Urban Multi-  Exsur
                                                    Apri1989 as cite in the U. Congrss. House of
                                                                              S.
                          Population, Peditr Res. 

                          Reprsentaves, Select             on     Cott  Youth and Fames,      Chn,
                                                                                            Born
                                                                                                                         (Washigton.
                           Hooked: Confontng the 1mpacl of Perinata Substae                                     Abuse,



                            C.: GPO. 1989). p. 6.

                           State of New Yor Senat. Commtt on Investigations,
                                                                             Taxtion.                                      and
                                                                                                   Sha of                 Dember 20.
                           Governt              Options.
                                                                  Crack Babies: The                          New York,



                           1989. p. 5.

                                                                                 Crk: Wil We Prte Them?'                  Public Welfare.
                       7. DJ. Beshav, .'Te                   Chdrn of
                           Fa11989, p. 7.

                           Natna           Drug Contol Stratgy,
                                                                                  The Whte Hous, Septembe 1989. p. 44.

                            U. Choff, M... Nationa Assoction for                                    Pe Adction Reseh               and
                                   A First: Natna Hospit Incidnce
                            Education.
                                                                                                       Surey. 1989.


                             State of Dlois. Deparent of Chidrn and
                                                                      Famy Serces. Dlois Dearent
                                                                                   Assocon for Perata
                            of Alcoholism and Substace Abuse. and the Natonal
                            Addction Reseh and Education,   The Illinois Model: A Staewi4 Collaorative
                            Program for Alcohol an Other Drug Using
                                                                     Pregna Women.       p. 3.



                                                                                                     In Their Second Bes Inzresl, 1989.
                        9. Philphia Citins for Chidrn and
                                                          Youth,


                                   30.
            APPENDIX

OPDIV COMMENTS ON THE DRAFT REPORT
                               ..




      DEPARTMENT OF HEALTH I. HUMAN SERVICES                                          OFFI   igF        roR
                                                                                             6EliER;'.
                                                                                                  Wasing. D.C.    20201


                                                                                      1990 I-tAR 12   P'rt   19


                                                                    ttO       'el-                     DIAI
                                                                                                       DIG-EX
                                                                                                       DIG
MEORADUM                                                                                               AIG-MP
                                                                                                       OOIIG
TO:                   Richard P. Kusserow                                                              EX    SB
                                                                                                       DATE SD
                      Inspector General
                                                                                     and Evaluation
FROM:                  Assistant secretary for planning


SUBJCT :               Crack Babies Report                                           0.3-69- 4/S'/0

overall I found this report informative, supporting many of the

                                                      I do,

anecdotes we have been hearing about these children. 

however, have several comments which I note below.


xssue. no
 Ken                       ione4:
I suggest that you note somewhere that not
                            certainly   existing evidence

                                           all) of these children

indicates that many (though In addition, it looks as though w

will have long term needs.
can help these children compensate, but

                                         canot cue, their
 deficits.                                                                                                         lso
 Your discussion of testing and tracking these children might 


 mention the growing tendency by local this
                              believe   and state officials
                                            very punitive   to

                                                          approach
 prosecute pregnant women. I
 is counter productive because its most likely effect will be to

 drive drg abusing  women away from prenatal care,
                                                                                                furer
 damaging the child.


 Regar4ing specific s

                                                          ..en    . in 
   b. ..port:
  On page 3, paragraph 2 you estimate                        I the

                                                               find
                        though  age 5 the  cost
                                       to be     of million.
                                              $500  caring for
  children you observed               er explanatio regarding your
  this figue  confusing without f              are you assuming will
  assumptions. For example,  what proportio
  be in foster care? It would also be helpful to cite a compariso
   figure regarding norml children.
 , In the final paragraph on page 3 and the first paragraphs on page
   4 you note, qui te appropriatelY" that few of these children are

                                fail to point out, however, but that

   being identified. What you issue, is that the lack of appropriate

   we find to be an important
   testing guidelines                             seem to result
                                       in discrimination against
   minority and low income 

                            women. Therefore, more minority and low
   income children are identified.

-.' ,.
     -, ".'   .. ;., -      ,. ­
                         .' .                               '''-   _- --




                                   Page 2 - Richard P. Kusserow


                                   Your discussion of identifying these children (page 3-4) might

                                   also mention that it is difficult to identify them as they grow

                                   up because of the limits of existing developmental tests.


                                   Certainly, they cannot identify         cause. In
                                                                              addition, most such
                                   tests are structured, catering to the strengths of these

                                   children. The deficits we are finding in these kids are

                                   primarily in their abilities to structure their own activities

                                   and emotions without help. They perform in the low normal

                                   range on structured tests. It is in unstructured activities

                                   (like play and interacting with other children and adults) that

                                   their problems show up.


                                   On page 5 you note infant attachment problems among many of

                                   these children placed in foster care, particularly if the

                                   infant has been moved from home to home. I share your concern

                                   but note that several researchers have also found attachment

                                   problems in these children when they remain with their

                                   biological parents or a single caretaker. A portion of the
                                   problem may be organic rather than environmental, relating to

                                   the damage done by the drug.


                                   The chart at the bottom of page 5 fails to recognize the issue

                                   which you note later (on page 13) that while crack is today'
                                   else will soon come along to replace        it.
                                   drug of choice among certain populations , "ice" or something

                                                                              Straight line
                                   proj ections of the number of crack babies is therefor somewhat
                                   misleading.
                                   Regarding Your Recommendations:


                                   I would add to your recommendations of state an Local

                                   Responsibilities (page 141) the active establishment and
                                   promotion of drug use prevention and rug treatment programs.

                                   This is especially important for woman of childbearing age-
                                   Most anti-drug messages are now aimed at teenagers, and as your

                                   report notes, these are not teenage mothers. In addition, few
                                   treatment programs are set up to treat pregnant women or

                                   mothers effectively. For example, few provide child care. 

                                   recent study found that 87% of the existing drug treatment

                                   programs in New York City would not treat pregnant, Medicaid

                                   eligible crack users.


                                   Your state and Local Recommendation number 4 notes the need for

                                   better reporting and tracking of these children. I would also

                                   add the need for better identification of drug exposed infants,
                                   including crack and other drugs. While you note in

                                   Recommendation 3 the need for training and guidelines for child

                                   welfare workers, it is hospital staff who must first identify

                                   these mothers and children. As your report notes, only 1/3 of

                                   the hospitals you visited had testing protocals in place. As

                                   noted above, this leads to racial and socioeconomic

                                   discrimination.
Page 3 - Richard           . Kusserow



You offer a list of recommendations regarding Federal activities

which are needed. While it is an appropriate list, I would
suggest that you also mention existing activities which address

many of the needs you mention. Your staff are aware of a recent

report written by my staff which outlines many of these efforts.
Your Recommendation numer 4 for the Office of Human Development
Services          5) suggests the need for interagency coordination
                   (page

of acti vi ties regarding these children and             . families.
                                                        While we
agree with that assessment, we are less certain to which agency

the lead should be assigned. This is both a public health issue
and a social services         one.
                              The lead could appropriately come
from a variety of sources. In addition, I believe that the

Social Security Administration should be added to your list of

agencies w ich should be involved because of their role in

funding services for these children (particularly through the SSI

disabled children program).


                            r J



                                               /'S err
                                         Cj,

                                   Martin
- - :...                '--
                     , ./
    -'
                    -I,'                                                                                                               . .i



                                                                                                                          Off Ice ot
           ".."t,                                                                                                         Human Development Services

                                   DEPARTMENT OF HEALTH &. HUMAJ" SERVICES
                                                                                                                           Assistant Secretary
                                                                                                                           Washington DC 20201


                                                                                       A.OR      30 1990



                               '10 :                      Ricbard P. Eusserow
                                                          Xnspector General


                               FROM:                         ssistant secretary
                                                              for Human Development services


                               SUBECT:                     Office of Xnspector General Draft Report on "Crack

                                                           Babies, "             01:1-03-89-01540


                                   '1hank you for tbe opportunity(OIG)
                                                                   to review the draft report of the
                                                                       anti tled "crack Babies.

                                   Office of xnspector General 

                                   '1he report provides valuable information and a vood overview of
                                                                                            .edical,
                                   tbe scope of tbe problem offare  infants
                                                                       and otberexposed               (e. V.,
                                                                                                to crack
                                                                                         systems
         cocaine and

                                   of its impact on cbild vel                           justice) either currently

                                   rehabilitation, .ental healtb, juvenil tbat the findinv are
                                   or proj ected into tbe future.
                                                              tbose
                                                                       We Dote
                                                                          eing reported
                                                                                                    y other
                                                                                                       here is also

                                   venerally consistent vi tb                             asis.

                                   investigators on a national and regional 

                                                                                            cocaine
                                   agreement vi tb tbe consensuS of tbe respondents interviewed for
is

                                   tbe report tbat tbe problem of infants exposed to crack
                               exosure to other
                                   interrelated vi tb tbe larger issue (page                 of prenatal
                                                                                                  13).
                                   drugs and alcobol as vell as &IDS 

                                                                                                   irst, page 3 of tbe

                                                                                                       hospital delivery and

                                   We do, however, bave several concerns. 


                                   report states tbat "We estimate tbe cost for 
                                 tbese 8,
                                   perinatal care, and foster care tbrougb age 5 for                     We suggest
                                                                                                             just
 tbat

                                                                 abies      approximate $500 aillion.

                                    identified

                                    tbese costs 

                                                                            roken down and justified so tbat tbey can 

                                                              are concerned, for example,

                                                                                                                                 abut tbe five
                                    better understood. .e                       care. Xn addition, tbe

                                    year projected lengtb of stay in foster                      nine day

                                    ini tial draft of tbe OXG
                                                           tby
                                                                report factored
                                                                  abies,         in costs for exceeds
                                                                         vbicb considerablY    a      the
                                     hospi tal stay for heal
                                     norm of tbree days or less.
                                                                                                                                              informati
                                                                                      is tbat
                                       second, vbile tbe selection of cities as tbe source of the
                                                                                              
   problem

                                                                                       pbenomenon.  '1be
                                       for the report vas reasonable, tbe implicati
                                       of infants exposed to crack cocaine is an urban 

               2 - Richard P. 

                                                usserow


     staff of the Children'S Bureau are beginning to receive reports

     from small towns and rural areas which indicate that the problem
   Officials in the state
     has spread to these areas of the country. '
     of wisconsin, for example, indicate that one reason that the .

     pro      lem of infants exposed to crack cocaine aay )) underreporte' '
     in such areas is that the babies are frequentlY referred to

                                           hese officials
     developmental disabilities programs, rather          indicate,

                                                 than to child

     protective services for assistance. 


     moreover, tbat the increase in the problem in rural areas of tbe

     state is equal to or greater than in the city of Xilwaukee.

                                               of the
        hird, the report would be strengthened by respondents
                                                      provisi
 interviewed
      documentati                            For example, the numer
      by site sbould be provided, as sbould the sources for 10.the

                                                                  Xn
      information presented in the charts      of the5text
                                      page-on9 pages   and and
                                                            
   in the

      addition, the data presented on 

                                               1983-1986,
      chart on page 10 relate to a one day count           the last
                                                   of children       years

                                                                 in foster

      care, not to entry rates for the years                 (VCXS) data are

       for which Voluntary cooperative Xnformation system

       currently available.
       Horeover, in discussing the stress being placed on the child

       protecti system, the report did not note that the system was
       already overburdened, due to high caseloads and inadequate

       resources, prior to the advent
       exposed to crack 

                                       of the
                                   Although   cocaine.
                                              phenomenon
                                            some         of infants

                                                 difficulties were
       identified in the adoption process, adoption is a reasonabl

        approach for infants exposed to crack cocaine with no parents or

         relatives. adoption sUbsidies are currently available in all
         states.                                                                           must
                                                   s recommendati ons
         Finally, while ve recognize that the OIG' 

         relate to the Department, ve would Suggest that 80me mention be

         made of the fact that the impact of infants exposed to crack

         cocaine extends beyond the purview of the Department of Health and

         Human services to encompass education, housing, law enforcement

          and other Federal" state aDd local agenci

                                                               i ty to
                                                   review the report.
          Again, thank you for the opportu





,I
- - :..   ....     !::                               .......--.-
                         l.",r " I . "'i...' . "'.

                                                                                                                Memorandum
                             APR - I   ,8
          Dat!

          Fro-            Gail R. Wilensky, Ph.                    qcJ
                          Administrator
           S..:,
                          OIG Draft Report - Crack Babies, OEI- 03- 89- 01540

                          The Inspector General
                          Office of the Secretary




                             We have reviewed the subject draft report It examied how crack babies
                          have affected the child welfare system in 12 metropolitan areas.

                                Though the report makes several recommendations to locl.                    State and

                          Federal agencies, only one recommendation is addressed to HCFA The report
                          recommends that HCF A and the Public Health Servce (PHS) continue to
                          support expanded availabilty of prenatal care to at- rik mothers and their babies.
                          Vle believe that the wording of the recommendation is to vague. Rether than
                          expansion. w e support targeted or intensive outreach intervention and p ren !:a!
                           are for substance a usmg pre nant women. We are already                   .engaged


                          i enti       ng an lssemmanng practices which encourage community involvement
                                    . O




                          in prenatal care outreach and education, as               this recommendation further
                           suggests.

                                 In addition to the drug            abuse training cited on page 16, we believe
                           Departmental effort must also address parallel servce delivery problems.
                           Prenatal care servces or linkages must be provided in drug treatment programs.
                           and drug treatment se rvces or linkages must be provided in prenatal care
                           programs.

                              Finally. we have one techncal comment. The PHS components listed on
                           page 15 should be clared to read:

                                           Bureau of Maternal and Child Health and Resources Development,
                                           Health Resources and Servces         Admitration
                                           National Institute of Child Health and Human Development, National
                                           Institutfls of Health
Page 2 . The Inspector General




       AJcohol, Drurz Abuse and Mental Health Administration
        - National   stitute on Drug Abuse
        . Office of Substance Abuse Prevention
        . Offce for Treatment Improvement

    Thank you for the opportunity . to review and comment on this draft report.
Please ad\ise us whether you agree with our position at your earliest
convenience.
            --. .-.-.,----.. -- ------.     ".-"-'."   g';;-:,       , -                    , .,

                                                                           .. ""II "881'" HrVIc;e
                                                                                                    ---
                                                                                                    ..- -
                                                                                                     . ,.   ..




'JtC
::'Z                                                                       Memorandum
  -Date
                Jf 21)
  From        Assistant Secretary for Health

  Sub,e:t     OIG Office of Evaluation and.              nspections Draft .eport " Crack
              Babies , " OEI 03-89-01540, February 1990
              Inspector General, OS


              Attached are the PHS comments on the f1ndinls and

              recommendations contained in the subject Ole draft report.
                e con cur vi t h the r e c 0 mm end a t ion s d 1 r e c t e d to P R S t 0
              (1) conduct long-term research on prenatal exposure, treatment
              models, and placement outcomes; promote training in medical

              5 c h 0011 and chi 1 d vel far e age n c 1 e s ; and pro mo t e pre ve n t i on
              through public outreach, and (2) continue to 8upport prenatal
              care expansiou.




                                          es O. K


              Attachment




                            10 ­

                            PDIG

                            DIG-AS

                            JnG-     EI




                            a;Jg

                             EX SEO

                             DATE
                                                                                                          0::
                                                                                                    n "" r:
                                                                                                     '0
                                                                                                    ;- "T 

                                                                                                     1-



                                                                                                    :- :: rr
                                                                                                          i- 0
-.   .-   -'-                         --_..-   ---- ----                ------
                                                                _0 ,.                              0 ..­




                                                                  TH SERVICE ON

                                                                                 TH OFF:CE OF
                                                                               REPORT
                      COMMENTS OF THE PUBLI
                               NSPECTOR                                           40.
                                                                                                  990
                               K aAIES ' OEI 03­


                Gene=ol Comments
                                                                                        pa   of the problem.
                The OIG reports that we are onlyand most 

                                                  seeing     ba
                                                         are not identified at

                birt.
                There is no typical crack
                        We concu that
                                       tests can detect cocaine in

                                   to measur
                for only 24 to 48 hours after use.

                                                                  methods
                                                   Howver, new an in hair.
                                                        meconum
                                                                          are
                                                                    the mother

                                                                  cocaine in
                becomng availabl
                These tests, if positive, would indicate prolonged use of

                cocaine during pregnancy.                         related
                                                    recognzes polyc9 abse an
                                                                adQrsses usues only
                Although the report
                problem (e.g.,
                                    

                                AJDS),
                                            Giva the    1.tauons to ths
                                                           th reiew
                                                    report shoud cocain.
                                                                   concentrte
                           focus, we. believ  the' crack'
                 te",S of crack-cocaine.

                 narror
                 . cocaine , rather thn on
                                            the           form  of
                                                               atteUon, we 
 believ
                                         title will attract 8Yonymsly may
                 Although the report' s crack' and ' cocaie ' statemnta    on.
                 the use of the term ' perhaps misleading differntially  identify
                  lead to inccurate and                                cocaine.
                                                              form ofnot differ by
                  prevalence since there is no way to

                  crack cocaine use from the use of   hum   boy
                                                        other 
 ciS
                 This is because presence in the 

                  form at intake. 



                                                   adQrssing the                 1Jctclincal
                                                                                      of .crck-USin9 mothers
                                                                                              indications
                  In addition. when                                                             addictg
                  on the child welfare
                  that when a
                                      won
                                       system,
                                    uses       there are

                                         the rapidly and highly becom metally
                                                                     she used               th if
                   crack' fa", of cocaine, she may more   it, to sto
                                                   usingrapidlY

                   incapacitate an unble
                   80me other f01: of cocaine.

                                                                                            th rertfor
                                                                                        tht program        fails to
                                    wUh to highlight is
                   Another point we 
                               drg tratmt
                                                                            should be coordnation
                   discuSS the availability
                    pregnnt
                                            of 

                                  . we believ   tht ther
                                                             trtmt,   prim an pretal ca
                    amg substance abse                         program.
                     HIV infection prevention 

                                                                                           an dr9-esed
                                                                                        AI overlap
                                pa   of the
                     There is a need to 

                      babies as
                                            s-             aciss peatriC 

                                                problel. The
                                           drgs for
                                                                                                   betWen the
                      problels of AJDS and
                                                      these infants means we
                                                          groups, offering the 

                                                ofte priding
                                                     services
                      usually dealing with the SlUe riBk 
     to the
                                                                                                  s- baies.
                      me".ages, and 

                      Fully 70 percent of 

                                           peiatriC AJDS

                      d'I" abuse of the IIther or her
                                                          cases are a result of the


                                                              reflecte in
                                                            the report,
                                                                                  sexl
                                                                               thes
                                                                                          pa. pacularlY
                                                                       local coordintion of
                                                                                               1Ico;tion

                        recom       Federal,
                       of thiS fact should be
State, an
                                       DS activities.

                       pediatric HIV/

Page 2

                                                                                                       DS Program

The surgeon General and the Director, National 




Children with HIV Infection and 

                                   DS.
Office co-chair a PHS Panel on Women, Adolescents, and
                                       This panel is comprised
                                                          fairs,
of all the PHS agencies and the problem
                                 Office ofidentified
                                            populati
 in this
and addresses many of the same

report. Therefore,  any DHHS effort to address
                                    this       the problems of
                                         panel.

drug-exposed infants should include 

                               on the OIG recomendations.
The following are our coments
 OIG Recommendation
 SB' dD                      LO USPORSIBILrfZS
            Establish reporting 

                                                            and    tracking
                                                                                             .ystems.drg
                                                                                                      States should
                                                                                                          exposure as
            establish criteria for reporting prenatal 

            child abuse.


  PHS coment
                                                                                                              on legal
  We concur. However, the recomendation
                              should be
                                         only centers
                                        used concuently                                                          to
  issues and this informtion               care.
  provide appropriate health education and 


   OIG Recommendation

   DEPAR'r                       01'   BE'l AI                    JI
                                                                  'le Office of
                                                                                 SERVICE RBSPOSIBILI'IES
                                                                                                            Humn
              Dissemnate
                                            effective(HDS)
                                                      practices.
                                                           should identify practices,

              Development Services
              in dealing with drg-exposed
                                                cases and dissemnate
              programs, and laws or regulations considered effective
                       ba   governnts.
              this informtion to State and local
     PHS Comment

     we concur. Howver, in 

                                                              addition to the ident.ificatio
     practices considered                                  effective, evaluation of ttme.
                                                                                     their

     effectiveness must be considered at the same 


      OIG Recomendatio
                                                                                                   'te BDS should

                    Coordinate
                                            activities relatig
                                              Deparental
                                                               to drg­        activities.



                    coordinate Departental famlies.
                    exposed babies and their 


            S Comment

       tol: believe that PHS rather than BDS should be thedrg-exposed
                                                            lead OPDIV
                                           Departent activities relating to
        to coordinate
        babies and their 
                         famlies.
                                                       'lhere ia a need for education                                and
... - . "   ,..                                   ))

                  Page 3

                                                                                           centers and prenatal program..
                  support t                     rough famly planing                          drg-exsed baies an
                  We advocate this           because medical problem. We

                                   position numerous
                  their famlies  encounter
                                     problem are primrily
                                                             medical or publi
                                                                     matters.                              abe                    1', '
                  believe that these
                  health issue., and not 

                                                 care or child              foste
                  OIG Recommendation

                                                                                         Serdc:s and Cbe
                                                                                                                      Beal
                                                                                                              PalJc


                  Office
                                   of ll Delopt
                  Serice                                                                     ':e BDS and the pHS should

                                                             term research. 

                             Conduct long-
                                                                            1)abies
                             conduct long-ter. research on the effects of prenatal

                             exposure to drugs, including crack cocaine, on 

                             and their mothers.


                    PHS comment

                    We concur. In this regard, the HealthChld
                                                          Resources
                                   s (HR) JlternlinvestigatorS
                                                     an       Healthand Services

                                                                   subtbaies.
                                                                     Research
                    Adnistration'permts
                                               research on "dr-esed"
                                                                to
                    Grant program         principal
                                     long-te=                       viable, it
                    applications for       prject in ths ara pros
                                      fundig.
                    If a proposed research
                    is considered for
                                                                                                      indispensa1)le.
                                short-term research
                           weYer , 

                                                 state
                                                       is also

                       suggest added 1)ullets to 

                                                                                                      determne the optiml

                                                  short-ter. research should 

                                                  treatment to cocaine-addicted mothers during

                                                  pregnancy to ensure the

                                                                                                    birt of a miimlly
                                                  affected infant.
                                                                              factors responsible for

                                                  research examning the risk

                                                  drg abse is   needed if effective prevention is to
                                                     imlemnted.
                                                  national 8ureillance system epidem
                                                                                8hould exist                                 to

                                                  specifically during pregncy.
                                                  monitor the extent of the crack



                           OIG Recomendation                                                                  an the PH should
                                                                                trai!n.
                                                                                                    'fe BDS
                                                                    abuse


                                       promote drg
                                                       drg
                                       proote
                                                                    abuse       traing
                                                                                               in




                                                  Kedical Schools, and

                                                  Child welfare agenci

Page      4.

PHS Comment

                        he   following eets

                                               fort our activities U\ 'tese
We concur.
 areas.
          Medical school
                                                                   Kedicine. ore

                                                     180 famly­
  The Bureau of Health Professions, BRSA, recently awarded
                                         approximtelyabut
                                                           a

  contract toths
              the society
                  contract of
                            is'lachers
                                to trainof ramly
  purose of
  medicine physician faculty how to teaCh residents 

  substance abuse.
                               cotract to

                                                                      se Bducation.

   ore Bureau of Health professions also awarded a fro academc

   sponsor a Physician consortium on Substace 


   ore consortium is               resposibl    comrised of representatives
                                                                        for the education

                     physicians. ore purse
   and professional organizations 

          trainng ofimlemnt
                                                                      of the consortium is
                                                                      will ence an
    and
    to refine and           strategi
                                                                wbich       reing
                                                                                8ubstaCe
    build on existing medical education strategies for

       arriers
                           to preventiOn and early identification of

       abuse.
                  ld   welfare Aaencies


          Haternalthough
                   and Child Health (HC)                 to chld
                                          Block Grant Program may


       indirectly,        the
                           drgStates,
                                abuse allocata
                                      traing. KC funs
       welfare agencies for 

       OIG Recomendation
                                                  pub11      outrch and
                Promote prevet10n W'ugb
                J.formt1onal _ter1als.

        PHS coment
                                                                      exded
        We concu. Jler,
                             the education should be                     since
                in junior high achools and middle achool

                                                          JI,
         ourses

        prevention must begin early.
                  is     workig with
                             an Chld Health,
        ore office of Katemal Abe pretion,                 AJ,
                                                   local coti
                                                                              on a joint
                                                                            focusing on
         the Office for Substace
                            prram to
         demonstration grant      of drl/ use durinl/ pregnancy.
                               tratmt                               priding tring
          prevention and
         date, a total of 45 

         in developinl/ new
                                  intervtion  teches
                             denstration prjects in h1l/h-risk
                                          funded.
         population areas have been 

Page 5


OIG Recommendation
Public Health      serice
                                       IId the
      Health          Ca 7J.cJ
Af'mirU Btraticm
                                                              care    expansion.
                                                                                        'le PHS and

     Continue
                   to       support prenatal


     the Health Care Financing 

                                                    Adnistration                   should continue

                                                  baies.
     to support expanded availability of prenatal care to at

     risk mothers and their 


PHS coment
We concur. BRA' S  Office of Maternal and Chld Health is
werking with HCFA to expand availability of-drg-exposed"
                                             prenatal care                                     to

more pregnant woen, including those with
children.
  echnical coments
                                         . is                                      errneous and
 'le title of ths  report, .crack Baies,   whch is used   by
               he appropriate te:cnology,
 misleading.
                                    field, is -drg-exposed" or
 experts and professionals in                      the title be

                            It the

                               is recomended that
  "drug-affected infants. -

 changed thoughout the report to
                                  -drg-e8ed baie8.
                                             drg cocaine.
                                                  baies
                                                           It
                                                         were,
                                    whether these (snorted)
 Crack is only one method of inge8ting  the

 virtually imo8sible crack,
                      to determne
 in fact, exposed to               comination of drgs during
                            intra-nasally ingested

 cocaine, or if the mother used a

 her pregnancy. 'lhearcurent research
                        poly drg
                                       available indicates
                                   usere, coming    cocainethat
                                                            with
 most -crack" users                crack. babies, a narrow and
  other drgs. By focusing only on . i8 creatad. Any

  references to             drg
  inaccurate perception of the problem ,

                      use among                         woen,
                                       8uch as that on page
                                                  .drg-addicted
                           . 8hould be changed to
   crack addicted mothers,

  mothers. "
  PaQes i and       1, .                       OUR
                                                 .!be Rational

  'le first paragraph 8hould be
                          (NIDA)changed  to tht
                                            read
ovr  6 million
                                                   estimtes
            on Drug Abuse
  Insti tute ild bearing age....
. instead of the 5 million
  woen of 

                                         estimte
                                   based on data 1s   the cited
                     fro
   in the report. 'le
   Rational Household                  surey,
                                         
     1988.
                Pifth Para                a h

   pa e 1
   'te report' 8 exclusive focus on crackamng
                                          8uggests there
                                              teenage    1­

                                                      mothers.
   relatively low use of crack cocaine

   'lbis "finding" could be misleading in that a clinically
                .'
    , .- - -- - .
- .-.                                                                                       ..




                     Page 6­
                                                                                                                     drgs,
                     s1g.1fi ant numr of teen                            age women are abusing many are or
                                                                                  hese young woen
                                                                                                          endager the live.
                     including other forms of cocaine. 


                                                      hese
                     .oon might become pregnant and thus
                     their yet-to-be- born children.
                                                           teenagera
                                                         will 

                                                                 into account their                      tae         reire
                                                                                                                        a wide

                     range of 8ervice. that are designed to 

                     developmental as well as their obstetrical Deed..

                                                      scope oUbe D%b                              wide      ranaina.
                     ,acre 3

                                                               . 'te cost for

                     In the second paragraph, OIG reports                                                              cae . .
                     hospital delivery and perinatal care, and foster

                     approximte $500 million.
                                                                    ben hospital
                      Al though in this report the costs of fo.ter care, pooled, it
                      delivery, and .hort-term perinatal care  have 
 delivery and
                      might be more informtive to
                                                   discuss hospital
                      perinatal care apart

                                                                  fra the cost of foster cae. perintal
                                               h1. i. ... contrast t.o the paucity
                      Informtion on cost to .upport                                                of
                                                     hospital delivery and

                      care i. now available. 


                      informtion on the actual cost of
                                                                                                 proic!g
                                                                                                      tie.qulity cae
                       foster homes over 
         periods of   indefinte
                        In response                  t.o these que.tions, .IDA                      i. cuently .upporting
                        research demonstration studies that
                                                    cost    comunities
                                                         to .oon        to more

                                                                 will provide                                            proide
                        detailed informtion on the
                        effective comprehensive       t.o addicted
                                                 .ervices,
                                               place,      with andpregnt
                                                                     withoutwoencase
 and
                        maagement system in                                   ben
                        their children.
                        .Ubtted,   NIDA i.
                                           tht vill
                         to design studi.s 

                                            actively encouraging
                                                                    as yet inve.tigators
                                         Although DO .tudies havecl1ncal
                                                                    ftift e thecritically
                                                                                                                         cut
                         foster care .yatem in t.exm of coat and beneficial effectS.

                                                                         cal        crack                      .OR        Dot

                                                                                                         t .ost crack    baies look
                                                                                                                       . We believ

                          healthy and are therefore difficut
                          In the firat .entence, OIG .tates 
t.o identi
                          it may be more correct t. .tate the followinga

                                         here i8 DO typical .et of 

                                                                                                 adver.e .igns or drg- induced
                                       pattern by which t. identify either a cocaine- or a crack

                                       cocaine- fetally-eaed infant.
                           Several reasons account for 

                                                                                   t.s           lack of       differetially
                           discrete pattern of effectaa

                             (1 )       Host woen               ar pol          9 absers rather                      th cocaine­
                                                                                                                           may
                                         only, and therefore clinicians have identified

                                         overlapping pattern.
                                                ..       ). 


Page 7

                                                         accuate drg
(2 )                                                 accuate
               In m08t ca8e8, it i8 impos8ible to get an      enough to
               U8e hi8tory from the mother, at lea8t 

                      s use of a specific drg likepatt.rn
               relate a specific neonatal clinical
               mother'
                                                    cocaie.with the

(3 )           There still 1s too
                                                     smll a numr
                                                 of cas.s Where accurate
               Qrg  U8e hi8tori88 do exi.t to foxm the basi. upon which
               to mae a differential diagnosi
                                                             expsure 11 utero     are
 ( 4) Very          subtle eigns of cocaine
               difficult to detect at the dpre8ent
                                            procedurs.
                                                   time because of a lack

               of clinical instruents 



                                                         studies that a1m to 
 describ the
 NIDA is curently supportng                newom, and           fetus,
 effecta of cocaine exposure on the 

 developing child as well as re8earch in the development and
                                                          of
             instrent.
 clinically sensitive and useful diagnosti

 procedures.                                                                            the
                                                                          sed Chldren
 pa e 5 the chart 8pro ection of 

                                                                              ch 1s not
  provided.
 Year 2000 


 'lhe source for                          the data used 11 the project1O!


  !'aqe l..EOPL AR
                                                                            UP 'f
  Fuer elabration 18 neces.ar on th8 8tat_nt.
  DRUGS. NOT JUST 





                                           DO
                                                       USPSIB

  laae


   82. Reduce                             bajer8. 8 'f date, 88Y.ofnviewg
                                                                     the ideasan
                              to reuce placet baien
                                placement                by .
   put fort                                           on . . .
 'te:mtion
   revising existing laws  and polici

                        8 have addressed the i..ue of unfit

   parental rights. 
                           the bab, and
                        perspective  of reov1lg   unfortuntely,
   mo'therhooc from the
   perhapa the other
              may result 11
                                                childr, fro the aother.fewr vaen
       termnation of parental right.                  for
  , voluntarily comg for prenatal-postntal    cae or
                                  (see attached copy of the

                                                  aed Infanta a

                             a
    American Bar a.aocietion'

                               8Ooqaph
    treatment for their addiction
                                          8 of the La al Medical
                                                                    rug




         'reir !'amlies'  Coordination Res  n
                                        Although t8porary placement
         and
                    rotect on Syatem                efforts and comity
         for children i. often necessary,              increase the

                          be directed towrd method. to
                                                 age comng into the
         numr of addicted vaen of chldbaring
         Xilitource. .hould
                                   drg tratmnt program that are
         medical, .ocial .ervice, and

          cu--rently available.
            ..-.--- "(-­   .- _           _-.--        .---.     -- -   -.-. -.- ---            . :?




Page
            , 84. 

                           Coord        nate      Deparental act1.v!t!...
l.aQe



Under the bullet 
                Pulic
                        Beal th Service, the Rational Institute
on Drug Abuse and the Alcohol,
Adnistration (ADAM) RIDA
                                Drug .s
                        are listed    AbuseeqlAD.
                                            and Mental Bealth

                                        being             Also,
                                    PHS, AD, BR,
                             is an Institute of
 organizations of PHS.
 there are other organizations
                               with
                                  whch have responsibility
                                                          and
 the National Institutes of Bealth
 relating to the subject matter of
                                                            ths report. BR'
                                                        s Bureaus
                                                     professi ons
                                               Katemal and Chld
 of Health Care Delivery and Assistance and Bealth'

 should be included along with the Office of Departent
 Health in the PHS representatives for
  activities. '.herefore,           .hould        ths pa
                                        the
read .. followl

        -- Rational AIDS program Offic

        -- PHS Panel on                 wom, Molescent.,        and     Chldr with BIV
           Infection an AIDS
                                                                  th      A"",i ft!- stration
        -- Alcohol, Drug Abu.e and .ental Beal 

             National Institute on Drug Abuse

             Office for Substance Abuse Prevention

             Office for -.reatment                     Imroemt
        -- Beal th Resources and Services 

                                                               Adnistration
                                                                    Assistace
               Bureu of Bealth Cae Delivery and
               Bureau of Health professions

               Office of Katemal and                     Chld Bealth
                                                      Chld Bealth and BWI Developmnt,
         -- National Institute                     on

                National Intitutes of Bealth




                                                                                                       7111
                                  _n.
